  OFFICE OF THE INSPECTOR GENERAL




           EVALUATION OF THE
U.S. INTERNATIONAL TRADE COMMISSION'S
FISCAL YEAR 2004 INFORMATION SECURITY
         PROGRAM AND PRACTICES



            AUDIT REPORT
             OIG-AR-OI-05




                               October 6, 2004
      INSPECTOR GENERAL


                                                          IG-BB-020




      UNITED STATES INTERNATIONAL TRADE COMMISSION

                              WASHINGTON. D.C. 20436

October 6, 2004

MEMORANDUM

TO:     THE COMMISSION

We hereby submit Audit Report No. OIG-AR-OI-05, Evaluation ofthe us. International
Trade Commission's Fiscal Year 2004 Information Security Program and Practices. We
conducted an independent evaluation ofthe Commission's information security program
and practices to determine if the Commission: (I) implemented appropriate actions to
address recommendations made in OIG-AR-03-03 (September 22, 2003); and (2) met
Federal Information Security Management Act criteria.

The Commission has made significant progress in strengthening its information security
program plan during the 2004 fiscal year (FY). The most commendable
accomplishments include:

   ./ Designing and implementing System Security Plans for Commission-owned
      major applications, notably: EDIS, ITC Net, Publishing Network, Custom Net
      Import File, Core WebServices and Data Web Cluster;

   ./ Working towards completing a Commission-wide risk assessment as well as
      application-specific risk assessments; and

   ./ Installing and implementing a new local area network infrastructure (lTC-Net)
      that was designed to address most of the FY 2003 access control related
      recommendations.

The Commission must however take further action in order to achieve consistency with
U.S. Office of Management and Budget (OMB) Circular A-130, Appendix III Security of
Federal Automated Information Resources (February, 1996). We made 14
recommendations to improve the Commission's IT security. In addition to the 13
recommendations from OIG-AR-03-03 (September 22,2003), this report identifies I new
weakness. The Commission concurred with our findings and recommendations.
Due to the sensitive nature of the information contained in our report, we have limited
distribution of the report.
